            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
        STATE OF OKLAHOMA
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2003

    FEBRUARY 2005    A-77-05-00009




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY
MEMORANDUM
Date:   February 22, 2005                                                 Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From: Inspector General

Subject: Management Advisory Report: Single Audit of the State of Oklahoma for the Fiscal
        Year Ended June 30, 2003 (A-77-05-00009)

        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of Oklahoma for the Fiscal Year ended June 30, 2003. Our objective
        was to report internal control weaknesses, noncompliance issues, and unallowable
        costs identified in the single audit to SSA for resolution action.

        The Oklahoma State Auditor performed the audit. The Department of Health and
        Human Services’ (HHS) desk review concluded that the audit met Federal
        requirements. In reporting the results of the single audit, we relied entirely on the
        internal control and compliance work performed by the Oklahoma State Auditor and the
        reviews performed by HHS. We conducted our review in accordance with the Quality
        Standards for Inspections issued by the President’s Council on Integrity and Efficiency.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Oklahoma Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. The Oklahoma
        Department of Rehabilitation Services (DRS) is the Oklahoma DDS’ parent agency.

        The single audit reported that:

        1. The auditors were not able to determine if cash draws were for immediate cash
           needs. Cash draws were estimated based on a monthly expenditures report and
           documentation was not available to verify this procedure. The corrective action plan
           indicated that the Cash Management Improvement Act Agreement has been
           modified to reflect DRS’ needs and the availability of existing data for supporting
           documentation (Attachment A, pages 1 and 2).
Page 2 – Candace Skurnik


2. The cost of unused leave for employees who retire or terminate employment was
   charged entirely to SSA programs instead of being allocated as a general
   administrative expense. In addition, employees were not certified as working solely
   on a single program. The corrective action plan indicated that adjustments were
   made to personnel services costs and semi-annual certifications will be completed
   for employees charged directly to a program (Attachment A, pages 3 and 4).

3. The Time Report of Personnel Services (SSA-4514) was inaccurate because the
   leave hours for nine individuals did not agree with the timesheets. The corrective
   action plan indicated that procedures were implemented to assure the leave hours
   reported on the monthly time report are the same as the leave hours that are
   reported on the timesheet (Attachment A, pages 4 and 5).

4. The auditors were not able to determine if the indirect costs were accurately
   reported because the base amount used to calculate the indirect costs could not be
   traced to accounting records. The corrective action plan indicated that the indirect
   cost computations schedule has been reviewed and bought up-to-date
   (Attachment A, pages 5 and 6).

These findings will be addressed in the audit of Administrative Costs Claimed by the
Oklahoma DDS (A-07-05-15102) which is currently being conducted by the Office of the
Inspector General. Accordingly, we are not making any recommendations .

The single audit also disclosed the following findings that may impact DDS operations
although they were not specifically identified to SSA. I am bringing these matters to
your attention as they represent potentially serious service delivery and financial control
problems for the Agency.

•   Procedures were not in place to ensure system modifications were authorized,
    tested and met users requirements (Attachment B, pages 1 and 2).

•   Procedures were not adequate to ensure system changes are independently tested
    and moved into production (Attachment B, pages 3 and 4).

•   Controls were not in place to ensure that data and programs were restricted to
    authorized users (Attachment B, pages 4 and 5).

•   Expenditures from a prior year were paid with funds from a subsequent year
    (Attachment B, page 6).
Page 3 – Candace Skurnik


Please send copies of the final Audit Clearance Document to Shannon Agee and Rona
Rustigian. If you have questions contact Shannon Agee at (816) 936-5590.




                                            S
                                            Patrick P. O’Carroll, Jr.
Attachments
Attachment A
  Page 1 of 6
Attachment A
  Page 2 of 6
Attachment A
  Page 3 of 6
Attachment A
  Page 4 of 6
Attachment A
  Page 5 of 6
Attachment A
  Page 6 of 6
Attachment B
  Page 1 of 6
Attachment B
  Page 2 of 6
Attachment B
  Page 3 of 6
Attachment B
  Page 4 of 6
Attachment B
  Page 5 of 6
Attachment B
  Page 6 of 6
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
